     Department of Homeland Security

     ��������������������������


Transportation Security Administration's Management 

  Letter for FY 2013 DHS Financial Statements Audit 





OIG-14-79                                  April 2014

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                     APR 23 2014


MEMORANDUM FOR:	              David Nicholson
                              Chief Financial Officer
                              Transportation Security Administration
                           for
FROM:	                       Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:	                     Transportation Security !dministration’s Management
                              Letter for FY 2013 DHS Financial Statements Audit

Attached for your information is our final report, Transportation Security
!dministration’s Management Letter for FY 2013 DHS Financial Statements Audit. This
report contains 15 comments and 45 recommendations related to internal control
deficiencies that were not required to be reported in the Independent !uditors’ Report
on DHS’ FY 2013 Financial Statements and Internal Control over Financial Reporting.
Internal control deficiencies which are considered significant deficiencies were reported,
as required, in the Independent !uditors’ Report, dated December 11, 2013, which was
included in the Department of Homeland Security’s (DHS) fiscal year (FY) 2013 Agency
Financial Report. We do not require management’s response to the recommendations.

We contracted with the independent public accounting firm KPMG LLP (KPMG) to
conduct the audit of the DHS’ FY 2013 financial statements and internal control over
financial reporting. The contract required that KPMG perform its audit according to
generally accepted government auditing standards and guidance from the Office of
Management and Budget and the Government Accountability Office. KPMG is
responsible for the attached management letter dated January 15, 2014, and the
conclusions expressed in it.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




January 15, 2014


Office of Inspector General
U.S. Department of Homeland Security, and
Chief Financial Officer
U.S. Department of Homeland Security, Transportation Security Administration
Washington, DC

Ladies and Gentlemen:

We have audited the financial statements of the U.S. Department of Homeland Security (DHS or
Department) for the year ended September 30, 2013 (referred to herein as the “fiscal year (FY) 2013
financial statements”), and have issued our report thereon dated December 11, 2013. In planning and
performing our audit of the financial statements of DHS, in accordance with auditing standards
generally accepted in the United States of America and Government Auditing Standards, we
considered internal control over financial reporting (internal control) as a basis for designing our
auditing procedures for the purpose of expressing our opinion on the financial statements. In
conjunction with our audit of the financial statements, we also performed an audit of internal control
over financial reporting in accordance with attestation standards established by the American Institute
of Certified Public Accountants.
The Transportation Security Administration (TSA) is a component of DHS. During our audit, we noted
certain matters involving internal control and other operational matters, related to TSA, that are
presented for your consideration. These comments and recommendations, all of which have been
discussed with the appropriate members of management, are intended to improve internal control or
result in other operating efficiencies. These matters are summarized in the Table of Financial
Management Comments on the following pages. The disposition of each internal control deficiency
identified during our FY 2013 audit – as either reported in our Independent Auditors’ Report, or herein
– is presented in Appendix A. Our findings related to information technology systems have been
presented in a separate letter to the DHS Office of Inspector General, the TSA Chief Information
Officer, and Chief Financial Officer.
Our audit procedures are designed primarily to enable us to form an opinion on the financial statements
and on the effectiveness of internal control over financial reporting, and therefore may not bring to
light all weaknesses in policies or procedures that may exist. We aim, however, to use our knowledge
of TSA’s organization gained during our work to make comments and suggestions that we hope will be
useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to improve
internal control or result in other operating efficiencies. Accordingly, this letter is not suitable for any
other purpose.
Very truly yours,




                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                              Transportation Security Administration
                             Table of Financial Management Comments

                                         September 30, 2013



TABLE OF FINANCIAL MANAGEMENT COMMENTS (FMC)


Comment
Reference   Subject                                                                             Page

FMC 13-01   Travel Authorization and Expenditure Support                                         2
FMC 13-02   Intra-Governmental Payment and Collection Review Controls and Suspense Clearing      2
FMC 13-03   Lease Accounting and Disclosure                                                      3
FMC 13-04   Ineffective Controls over the Time and Attendance Process at Airports and Federal
            Air Marshall Facilities                                                              5
FMC 13-05   Inadequate Review of Personnel Actions                                               6
FMC 13-06   Non-Compliance with the Debt Collection Improvement Act of 1996                      6
FMC 13-07   Controls over Internal Use Software                                                  7
FMC 13-08   Undelivered Orders Controls – Validation and Verification                            8
FMC 13-09   Property, Plant, and Equipment Controls                                              9
FMC 13-10   Gross Cost Deficiencies                                                              10
FMC 13-11   Review of Manual Adjustments (Journal Vouchers and Treasury Information
            Executive Repository Adjustments)                                                    12
FMC 13-12   Contract Administration                                                              12
FMC 13-13   Adjustments to Prior Year Obligations                                                13
FMC 13-14   Entity Level Controls                                                                13
FMC 13-15   Imputed Costs                                                                        14



                                           APPENDIX


Appendix    Subject                                                                             Page

A           Crosswalk – Financial Management Comments to Active Notices of Finding and           15
            Recommendation (NFRs)




                                                   1

                                Transportation Security Administration

                                  Financial Management Comments

                                         September 30, 2013




FMC 13-01 – Travel Authorization and Expenditure Support (Notice of Finding and
Recommendation (NFR) No. Transportation Security Administration (TSA) 13-01)

       As a result of our testwork to ensure that travel authorizations and vouchers were properly
       approved and coded and recorded into the general ledger, we noted controls over the travel
       authorizations were not operating effectively. Specifically, we noted:
       �	 In two instances out of 33, the travel supervisor did not verify expenses incurred were
           appropriately supported by receipts.
       �	 In five instances out of 33, TSA failed to provide evidence of a three-way match to ensure the
           travel expenditures incurred were approved by the supervisor prior to travel, were within the
           amount authorized, and were properly supported by a receipt.

       Recommendations:
       We recommend that TSA:
       �	 On a monthly basis, audit a sample of travel vouchers to verify expenses are appropriately
          supported, and notify travelers and supervisors of findings of non-compliance. Non­
          compliance identified should be tracked through resolution.
       �	 Modify policies related to Centrally Billed Account (CBA) usage. TSA organizations with
          CBAs should review and modify procedures related to CBA usage and reconciliation to
          ensure that all CBA transactions have evidence of authorization and supporting receipts are
          matched to the credit card statement.

FMC 13-02 – Intra-Governmental Payment and Collection Review Controls and Suspense Clearing
(NFR No. TSA 13-02)

       Documentation supporting the review of all categories of Intra-Governmental Payment and
       Collection (IPAC) payments was not maintained. Specifically, we noted in eight instances out of
       30, there was no evidence of contracting officers’ representative (COR) approval for the IPAC.

       Controls were not operating effectively to ensure that adequate documentation was maintained to
       verify that IPAC transactions were appropriately supported and recorded in the general ledger,
       including documentation that evidences contract details such as period of performance, contract
       deliverable requirements, and contract funding sources related to IPAC transactions. Specifically,
       we noted the following:
       �	 In one instance out of 30, the period of performance was not specified on the Purchase Order
           and the IPAC.
       �	 In one instance out of 30, a Working Capital Fund invoice was not properly supported by an
           executed Miscellaneous Obligating Document.
       �	 In one instance out of 30, the invoice amount was improperly short-paid, causing an
           understatement to expense.




                                                   2

                                Transportation Security Administration
                                  Financial Management Comments

                                         September 30, 2013




       Controls were not operating effectively to ensure that IPAC related expenses are recorded in the
       general ledger timely subsequent to IPAC receipt. Specifically, we noted in one instance out of
       30, the IPAC transaction was not recorded in the general ledger timely.

       Controls were not operating effectively to ensure that capitalizable advance/prepayment
       transactions were appropriately monitored by the respective program office COR, and that
       inter/intragovernmental advance balances are liquidated timely for financial reporting.
       Specifically, we identified one instance where an intergovernmental advance was not timely
       liquidated for financial reporting. We note management identified and corrected this error as of
       September 30, 2013.

       Recommendations:
       We recommend that TSA:
       �	 Financial Management Division (FMD) work with the Office of Acquisitions, the Budget and
          Performance Division and CORs to:
              o	 Establish requirements for documenting and filing evidence of receipt of goods and
                  services.
              o	 Continue training and outreach efforts to increase awareness of the IPAC review and
                  process requirements.
       �	 FMD work with Coast Guard Financial Center (FINCEN) and the CORs to confirm all
          IPACs are properly reviewed and approved per FMD procedures prior to payment.
       �	 FMD review the monitoring process of the recording of IPAC transactions in the general
          ledger with validation of timeliness and implement improvement procedures as needed.

FMC 13-03 – Lease Accounting and Disclosure (NFR No. TSA 13-03)

       Controls over the Master Lease Listing maintained by Chief Administrative Office (CAO) were
       not operating effectively to ensure leases are appropriately classified as cancellable versus non-
       cancellable. Specifically, we noted the following:
       �	 Two instances where the lease was incorrectly classified as cancellable in the prior year.
       �	 Three instances where the lease was incorrectly classified as cancellable as of March 31,
           2013. Additionally, we noted one instance where the lease was incorrectly classified as non-
           cancellable as of March 31, 2013.

       Controls over the Master Lease Listing maintained by CAO are not designed effectively to ensure
       supporting documentation (e.g. updated lease agreement) is received timely by FMD to update
       the schedule of leases to ensure the completeness and accuracy of information used for financial
       reporting purposes. Specifically, we noted the following:




                                                    3

                         Transportation Security Administration

                           Financial Management Comments

                                  September 30, 2013




Interim testwork (performed as of March 31, 2013)
�	 Four instances where the occupancy agreements were executed prior to fiscal year (FY) 2013;
    however, were not included in the FMD schedule of leases until FY 2013.
�	 Two instances where the occupancy agreements were expired prior to FY 2013; however,
    were not removed from the FMD schedule of leases until FY 2013.
�	 One instance where the occupancy agreement had rent escalations but was improperly
    classified as not having rent escalations.
�	 One instance where a non-cancellable occupancy agreement was designated as cancelled per
    CAO; however, was active as of March 31, 2013.

Final testwork (performed as of September 30, 2013)
�	 11 instances where occupancy agreements, and two instances where direct leases were not
   fully executed, but were improperly included in the FMD schedule of leases as of March 31,
   2013.
�	 One instance where a direct lease was executed prior to March 31, 2013; however, was not
   included on the FMD schedule of leases until September 30, 2013.
�	 One instance where the lease term was incorrectly classified. As a result, the future minimum
   lease payments disclosure is overstated as of September 30, 2013.

Recommendations:
We recommend that TSA:
�	 CAO inventory the database supporting the Master Lease Listing (MLL database) and
   validate all current leases for proper classification of cancellable vs. non-cancellable.
�	 CAO continue to develop written policies and procedures to ensure:
       o	 All new leases and occupancy agreements (OA) are evaluated for financial reporting
           impact, including: cancellable vs. non-cancellable; capital vs. operating; lease term,
           beginning and end dates; and lease status (active, expired, canceled, holdovers)
       o	 The MLL database is updated for formally executed changes affecting financial
           reporting in the month in which the changes occur.
       o	 Updated lease and OAs documents are uploaded to the SharePoint as support for
           formally executed changes made to the MLL database.
       o	 Controls are in place for proper review, validation, and approval of changes made to
           the MLL database. Validation should include verifying that the proper lease or OA
           document exists on SharePoint. A standard checklist should be used to verify all
           financial reporting factors have been validated prior to approval of changes.
       o	 The current General Services Administration (GSA) OA number, including GSA
           version, is maintained in the MLL database to match GSA OAs to active OAs
           included in the MLL database.
�	 FMD Internal Control Branch (ICB) perform periodic reviews to ensure design and operating
   effectiveness of CAO’s revised Master Lease Listing policies and procedures for financial
   reporting completeness and accuracy of TSA lease data.




                                            4

                               Transportation Security Administration
                                 Financial Management Comments

                                        September 30, 2013




       �	 CAO implement a commercial real property management system that is interfaced with
          TSA’s financial management system. CAO should work with FMD (including their ICB) to
          develop and update procedures to ensure appropriate management of TSA’s real property
          portfolio.
       �	 CAO assign a dedicated lease reporting coordinator to work with Portfolio Managers, and
          other lease personnel, to ensure the MLL database is updated timely and accurately in support
          of TSA’s completeness assertion.

FMC 13-04 – Ineffective Controls over the Time and Attendance Process at Airports and Federal
Air Marshall Facilities (NFR No. TSA 13-04)

       During our FY 2013 site visits to airports, we noted that controls over time and attendance were
       not fully effective at the airports. We noted the following:
       �	 Controls over the review and approval of timesheets are not operating effectively.
           Specifically, we noted:
           o	 Lack of evidence of timely supervisor review and approval of timesheets and additional
                supporting documentation (14 instances):
                    � Two instances out of 65 where overtime requests were not approved prior to the
                         employee working the overtime hours.
                    � Four instances out of 65 where leave request approval documents (OPM-71
                         forms) could not be provided.
                    � Two instances out of 65 where the employee timesheet was not timely reviewed
                         and signed in support of hours worked.
                    � Five instances out of 65 where leave was taken prior to supervisor approval.
                    � One instance out of 65 where the employee was paid for 0.5 hour of unauthorized
                         time worked.
           o	 Lack of policies and procedures to ensure consistent application of time and attendance
                review requirements at airports utilizing the Electronic Time and Attendance System
                (eTAS).

       During our FY 2013 site visits to Federal Air Marshalls facilities, we noted that controls over
       time and attendance were not fully effective. We noted the following:
       �	 Controls over the review and approval of timesheets were not operating effectively.
           Specifically, we noted:
           o	 Lack of evidence of timely supervisory review and approval of timesheets and additional
               supporting documentation (one instance):
                   � One instance out of 48 where leave was taken prior to supervisor approval.

       Recommendations:
       We recommend that TSA:
       �	 Develop and provide information and guidance on the governing policies for leave and
          overtime approvals and procedures for the use of eTAS.




                                                  5

                                Transportation Security Administration

                                  Financial Management Comments

                                         September 30, 2013




       �	 Remove the outdated Time and Attendance manual and replace it with up-to-date job aids
          addressing proper time and attendance recordation.
       �	 Conduct monthly meetings with the payroll user community to gather concerns and issues
          and to provide training focusing awareness on maintaining effective controls over time and
          attendance processes and proper time and attendance recordation.
       �	 Provide guidance on the governing policy for appropriate OPM-71 document retention.

FMC 13-05 – Inadequate Review of Personnel Actions (NFR No. TSA 13-05)

       Controls over review of personnel actions were not fully effective. Specifically, we noted two
       instances out of 45 where the EmpowHR Personnel Action Request was prepared and reviewed
       by the same person. We noted proper segregation of duties and adequate review did not exist in
       these instances.

       Recommendations:
       We recommend that TSA:
       �	 Provide oversight to ensure that the service provider follows standard operating procedures,
          PER-031, HRSC Processing of New Hire Personnel Actions in EmpowHR, which indicates
          that the process and quality assurance (QA) roles are separate and distinct roles in the
          process.
       �	 Continue oversight of the service provider’s QA review of personnel actions to ensure it is
          operating effectively and in accordance with the Federal regulations, policies, and internal
          guidelines.

FMC 13-06 – Non-Compliance with the Debt Collection Improvement Act of 1996 (NFR No. TSA
13-06)

       During FY 2013, TSA revised its internal standard operating procedure manual (ISOP) to ensure
       compliance with Debt Collection Improvement Act (DCIA) of 1996. Although an ISOP had been
       adopted and approved, the ISOP had not been in effect for the entire period sampled, and
       therefore could not ensure full compliance with the provisions of DCIA for FY 2013.
       Additionally, we noted the following:
       �	 For five of 58 sample items selected, demand letters were not sent to the debtor in a timely
           fashion.
       �	 As a result of these demand letters not being issued timely, we noted four instances of non­
           compliance regarding timely referral to Treasury.

       Recommendations:
       We recommend that TSA:
       �	 Perform a thorough gap analysis of current processes and new service provider processes and
          system to streamline and automate existing manual processes.




                                                  6

                                Transportation Security Administration

                                  Financial Management Comments

                                         September 30, 2013




             o	 To the extent possible, utilize the integration offered by the new service provider
                system through the use of the subsidiary system to minimize manual processes and
                reconciliations.
       �	 Revenue office review ISOP for continued compliance.
       �	 Revenue office review DCIA for continued compliance.

FMC 13-07 – Controls over Internal Use Software (NFR No. TSA 13-07)

       TSA lacked effective controls at the program office level to ensure capitalizable internal use
       software (IUS) transactions were properly supported, documented and communicated timely for
       recording in the general ledger. Specifically, we noted:
       �	 For two of the projects tested at interim, program managers were not able to provide
           sufficient support for cost capitalization criteria.
       �	 For three of the projects tested at final, program managers were not able to provide sufficient
           support for cost capitalization criteria.
       �	 One instance in which the program manager did not report cost estimates for services that had
           been performed but not yet invoiced by the vendor, resulting in prior period errors related to
           costs that should have been capitalized as of September 30, 2012.

       Controls were not operating effectively to ensure that IUS phase shifts were communicated
       timely for financial reporting. We noted one instance where project enhancements were not
       transferred to the amortizable IUS account (United States Standard General Ledger (USSGL)
       Account 1830) timely based on the release deployment date.

       Controls were not operating effectively to ensure project impairment checklists were completed
       timely by program managers for financial reporting considerations. We noted one instance where
       the project impairment checklist was not signed timely.

       Controls were not operating effectively, when applying alternative valuation methodologies, to
       ensure that management appropriately:
       �	 Quantified the impact to all relevant financial statement items of assumptions deemed to be
           immaterial.
       �	 Maintained sufficient documentation to support subject matter expert (SME) cost
           capitalization allocations, particularly when allocations are not discernible from the
           contract/statement of work.
       �	 Considered prior period impact of the methodology.

       Recommendations:
       We recommend that TSA:
       �	 Chief Financial Officer work with the Office of Acquisitions and program offices to obtain
          and document the IUS data item description at the time of invoicing. This requirement should




                                                   7

                                 Transportation Security Administration
                                   Financial Management Comments

                                          September 30, 2013




            be implemented for all existing contracts that have IUS, and all future contracts that could
            potentially result in IUS.
       �	   Office of Acquisition obtain the IUS data item description for all new contracts where
            software is developed or licenses are purchased (when included in the purchase requisition
            package). Also, obtain IUS data item description on contracts for the largest IUS programs
            (those with a net book value greater than $5 million).
       �	   Program offices submit impairment checklists quarterly to FMD in addition to submitting the
            impairment checklist in the month the actual impairment occurs.
       �	   FMD review and update existing policies and procedures to improve the management review
            and approval process to ensure cost is properly supported, the review/approval of phase shifts
            in programs is documented, and the review of completed impairment checklists.
       �	   FMD perform an assessment of OASIS Cohort program to address approach and
            methodology for applying alternative methodology assessment considering:
                o	 Documenting the prior period impact in adopting new methodology.
                o	 Documenting the criteria for establishing alternative methodology, programs
                    benefitted for the program and basis for capitalization.
                o	 Quantifying the impact to all relevant financial statement items of assumptions
                    deemed to be immaterial; including developing test for reasonableness and
                    documented criteria for capitalization and useful life.
                o	 Establishing procedures and methodology to maintain sufficient documentation to
                    support SME cost capitalization allocations, particularly when allocations are not
                    discernible from the contract/statement of work.
                o	 Developing and publishing procedures related to establishing and maintaining an
                    alternative assessment methodology for IUS.
                o	 Testing results quarterly to ensure consistency in applying methodology and
                    adequacy of supporting documentation.

FMC 13-08 – Undelivered Orders Controls – Validation and Verification (NFR No. TSA 13-09)

       TSA’s policies and procedures were not designed effectively to ensure liquidation of remaining
       stale obligation balances is completed timely. Specifically:
       �	 During our interim undelivered order (UDO) verification and validation control testwork, we
            noted five instances in which the liquidation of the remaining funding was not completed
            timely based on the contract period of performance expiration date.
       �	 During our final UDO validity and recoveries of prior year unpaid obligations substantive
            testwork, we noted four instances in which the liquidation of the remaining funding was not
            completed timely based on the contract period of performance expiration date.




                                                    8

                                Transportation Security Administration
                                  Financial Management Comments

                                         September 30, 2013




       Recommendation:
       We recommend that TSA:
       �	 Office of Acquisition lead an organization wide assessment, in conjunction with other
          stakeholders, of the procedures and training required to implement a timely closeout process
          for TSA. This assessment can include the following interim steps:
              o	 Office of Acquisition and Office of Finance and Administration (FMD and Budget
                  and Performance Division) to identify possible improvements to incentive programs
                  to closeout contracts timely.
              o	 Provide training and guidelines to COR community for the initiation of timely
                  closeout.

FMC 13-09 – Property, Plant, and Equipment Controls (NFR No. TSA 13-10)

        TSA lacked fully effective preventative controls to ensure that capitalizable transactions are
        recorded in the general ledger timely and at the proper cost. We noted detective controls at the
        FMD level were relied upon to ensure complete and accurate financial reporting as of year-end.
        Specifically, we noted:
       �	 Existing controls were not operating effectively at the program office level to ensure that the
           full cost is entered into Sunflower Asset Management System. We noted one instance where
           a prior period error was not detected and corrected until April of the current year.
       �	 Existing controls were not operating effectively at the program office level to ensure the
           proper documentation is available for assets to be timely reviewed and approved for addition
           into Fixed Asset (FA) Module. Specifically, we noted one asset was not approved for
           addition into FA until two months after TSA took ownership of the asset.
       �	 Existing controls were not operating effectively to ensure that capitalizable costs related to
           Transportation Security Equipment (TSE) are completely and accurately recorded.
           Specifically, we noted:
                o	 Five upgrade kits for which the unit cost exceeded the capitalization threshold but
                    was not included in the TSE capitalized balance.
                o	 Six transferred assets were not recorded appropriately at either the net book value
                    (NBV) of the transferring agency or asset fair market value on the date of transfer.

           Controls were not operating effectively to document the quantification of the impact of
           managerial decisions to not capitalize certain other direct costs (ODCs).

           Controls were not operating effectively to ensure that sufficient, appropriate documentation is
           maintained to support the completeness and accuracy of the year-end TSE accounts payable
           accrual. Specifically, while no significant discrepancies were identified, we noted that
           deviations from third-party vendor confirmations were not properly reconciled to supporting
           documentation to demonstrate that an accrual was not necessary.

           Controls to verify that the complete TSE balance is reviewed on an annual basis for
           impairment considerations were not designed effectively to ensure that (a) checklists are sent



                                                   9

                               Transportation Security Administration

                                 Financial Management Comments

                                        September 30, 2013




          to the Office of Security Capabilities for all manufacturers/models of TSE or (b) that the
          determination made to not send checklists is sufficiently documented (e.g. remaining NBV is
          inconsequential).

          Recommendations:
          We recommend that TSA:
          �	 Work with the Office of Acquisitions to ensure all contracts for purchased equipment
             require TSA Form 251, Vendor Shipping and Receiving Report.
          �	 Perform an analysis to document capitalization decisions that differ from standard
             capitalization determinations.
          �	 Review and utilize the TSALC reports as a completeness step to ensure that upgrades are
             properly tracked and recorded.
          �	 Program offices that purchase equipment provide the actual cost to be recorded in
             Sunflower in the month the equipment passes factory acceptance testing for TSE, and for
             non-TSE in the month the equipment was acquired and placed in service.

FMC 13-10 – Gross Cost Deficiencies (NFR No. TSA 13-11)

          TSA lacked fully effective controls to ensure all capitalizable transactions are recorded timely
          in the general ledger. Specifically, we noted:
          �	 TSA lacked policies and procedures to reconcile transactions that have been cleared as
               expense in USSGL account 1890 to the results of other process level reviews used to
               identify capitalizable transactions to ensure that the transactions have been properly
               capitalized and recorded timely in the general ledger. We noted one instance where
               expenses recorded through the USSGL account 1890 clearing process for capitalizable IT
               equipment were not applied to assets timely.
          �	 While controls were designed and operating effectively to analyze transactions at year­
               end during manual review processes that result in re-classifications of account balances,
               TSA lacked documented policies and procedures to analyze and assess the financial
               reporting impact of gap periods at quarter-ends for such processes. We noted:
                   o	 Two invoices for which an advance was properly identified but not recorded
                        timely in the proper quarterly reporting period.
                   o	 One invoice for which an ODC was properly identified but not recorded timely in
                        the proper quarterly reporting period.

          Controls were not operating effectively at the program office level to ensure transactions are
          recorded using the proper object class code. We noted three instances out of 118 where the
          object class for the transaction line item was coded incorrectly.

          Controls were not operating effectively at the program level to ensure vendor type for
          transactions are properly coded as NONGOV or OSDOT. Specifically, we noted 71




                                                  10

                    Transportation Security Administration
                      Financial Management Comments
                             September 30, 2013



instances in which a Federal vendor, primarily related to one vendor, was improperly coded
as NONGOV.

Recommendations:
We recommend that TSA:
�	 Continue to execute the compensating controls in place to minimize the likelihood of
   material errors in the USSGL account 1890, including reviews several times a year
   through the management control objective plans implemented in the Property Plant and
   Equipment Accounting Branch.
�	 Update the ISOP for Advances and Prepayments to include procedures to analyze and
   assess the financial reporting impact of gap periods at quarter-end. TSA should
   implement the procedures outlined in the memorandum for the record titled "Accounting
   for Prepayments at 2013 Fiscal Year-End," signed October 23, 2013, for all future March
   31, June 30, and September 30 reporting periods. Specifically;
   o	 Adjust the formula used to calculate the liquidation of prepayments to be current for
       the reporting period.
   o	 Review and substantiate contract and purchase order obligations posted to the general
       ledger during the reporting period for prepayments.
   o	 Perform invoice validation for potential prepayments.
   o	 Record a Treasury Information Executive Repository (TIER) entry if validated
       prepayments exceed documented thresholds.
�	 Update the ISOP for ODCs to include procedures to analyze and assess the financial
   reporting impact of gap periods at quarter-end. Year-end procedures exist, but procedures
   for March 31 and June 30 reporting should be implemented as follows:
   o	 Determine the amount of ODCs identified in invoices processed in the financial
       system during the gap period of the reporting period. TSA should follow the normal
       invoice review procedures for this period.
   o	 Record this amount in a TIER entry. The amount should then be included in the
       following month’s general ledger journal entry.
�	 Work with FINCEN to correct the vendor type. Review security, controls, and set-up of
   the vendor table during the requirements phase of the transition to the new financial
   system.
�	 FMD provide training to Business Managers and COR's on use of object class codes to
   include providing list of frequently used object class codes.
�	 FMD develop metrics utilizing results from PO review to track object class code errors
   impacting financial reporting.




                                      11

                               Transportation Security Administration

                                 Financial Management Comments

                                        September 30, 2013




FMC 13-11 – Review of Manual Adjustments (Journal Vouchers and TIER Adjustments) (NFR No.
TSA 13-12)

          Controls related to journal entry reviews were not fully effective during the current year.
          Specifically we noted:
          �	 One sample item out of 25 that was recorded for the incorrect amount.
          �	 One sample item out of 25 that was recorded to the incorrect line of accounting.

          Recommendations:
          We recommend TSA:
          �	 Ensure that Journal Entry and TIER adjustment preparers and reviewers follow stated
             procedures for review and approval.
          �	 Branch Chiefs train their staff on all applicable accounting standards and procedures for
             their areas of responsibility. This training should include where and how the staff are to
             obtain all the required elements of a Journal Voucher.

FMC 13-12 – Contract Administration (NFR No. TSA 13-13)

          Controls were not operating effectively to ensure contracts are effectively administered,
          including executing modifications timely to extend contract periods of performance (POP)
          when services are still actively being received from the vendor. Specifically, in our testwork
          performed over UDOs, we noted the following:
          �	 Two obligations for which the contract POP had expired and a contract modification was
              not executed to extend the POP.
          �	 One obligation for which the contract POP had been extended, but the contract
              modification was not properly approved by a contracting officer prior to execution.

          Recommendations:
          We recommend that TSA:
           �	 Office of Acquisitions review existing policies, procedures, and Federal Acquisition
              Regulations guidance related to invoicing instructions. Determine if changes to
              invoicing requirements are needed and when they should be applied.
           �	 Office of Acquisitions review existing policies and procedures related to contract period
              of performance extensions. Determine if changes to documentation or training are
              needed. Provide guidance to contracting officers regarding processing extensions prior
              to the POP ending.




                                                  12

                               Transportation Security Administration

                                 Financial Management Comments

                                        September 30, 2013




FMC 13-13 – Adjustments to Prior Year Obligations (NFR No. TSA 13-14)

         Controls were not operating effectively to ensure upward and downward adjustments are
         properly and timely reviewed and correctly recorded. Specifically, in our testwork performed
         over UDOs, we noted the following:
         �	 Two instances where downward adjustments of prior year unpaid UDOs were not recorded
             timely, as recoveries, based on the de-obligating document date.
         �	 Two instances where upward adjustments of prior year UDOs were not recorded timely,
             based on the obligating document date.

         Controls were not fully implemented throughout FY 2013 to ensure obligations of expired
         authority are properly reviewed and approved to verify that the use of expired funds is
         appropriate, prior to recording as an upward adjustment.

         Recommendations:
         We recommend that TSA:
         �	 Establish controls to prevent the use of prior year budget lines of accounting for new
            obligations and commitments.
         �	 Establish a process that includes Budget and Performance Division review and certification
            if the use of prior budget year lines of accounting is requested.

FMC 13-14 – Entity Level Controls (NFR No. TSA 13-15)

        Entity-level controls were not fully effective throughout FY 2013. We noted:
        �	 TSA lacked a documented policy requiring FMD employees to complete technical training
            in accounting related subjects to ensure compliance with the curriculum.
        �	 TSA lacked effective controls to ensure performance reviews are signed off timely.
            Specifically, we noted eight instances out of 15 where there was insufficient evidence to
            support why the initial performance plan goal setting was not performed timely.

         Recommendations:
         We recommend that TSA:
         �	 Continue implementing its training curriculum guide to foster employees' individual and
            career development. Additionally, individual and career development should be addressed
            in performance plans.
         �	 Ensure compliance with Enterprise Performance Management Platform performance plan
            deadlines:
                o	 FY 2014 performance plans should be in place by January 31, 2014.
                o	 New hire plans should be in place within 30 days of their entry on duty.
                o	 Completion of mid-cycle performance assessments by the date specified by the
                    Office of Human Capital.




                                                 13

                              Transportation Security Administration
                                Financial Management Comments

                                       September 30, 2013




FMC 13-15 – Imputed Costs (NFR No. TSA 13-16)

        Controls were not fully effective to ensure completeness of imputed costs for FY 2013.

        Recommendations:
        We recommend that TSA:
        �	 Work with Office of Chief Counsel to create and maintain a list of all cases submitted to
           the Judgment Fund and track each case’s status against the Judgment Fund reports.
        �	 Run the Judgment Fund reports for all months in which cases have been submitted to
           ensure they capture the whole population of payments each fiscal year.




                                                 14

                                                                                                              Appendix A
                                    Transportation Security Administration
                         Crosswalk – Financial Management Comments to Active NFRs
                                             September 30, 2013


                                                                                                   Disposition1
                                                                                                  IAR                 FMC
              NFR
Component                Description                                                    MW         SD        NC       No.
              No.
TSA           13-01      Travel Authorization and Expenditure Support                                                13-01
                         Intra-Governmental Payment and Collection (IPAC) Review
TSA           13-02                                                                                                  13-02
                         Controls and Suspense Clearing
TSA           13-03      Lease Accounting and Disclosure                                                             13-03
                         Ineffective Controls over the Time and Attendance Process at
TSA           13-04                                                                                                  13-04
                         Airports and Federal Air Marshal Facilities
TSA           13-05      Inadequate Review of Personnel Actions                                                      13-05
                         Non-Compliance with the Debt Collection Improvement Act
TSA           13-06                                                                                                  13-06
                         of 1996
TSA           13-07      Controls over Internal Use Software                                                         13-07
                         Non-Compliance with the Federal Financial Management
TSA           13-08                                                                                           J
                         Improvement Act of 1996
TSA           13-09      Undelivered Orders Controls – Validation and Verification                                   13-08
TSA           13-10      Property, Plant, & Equipment Controls                                                       13-09
TSA           13-11      Gross Cost Deficiencies                                                                     13-10
                         Review of Manual Adjustments (Journal Vouchers and TIER
TSA           13-12                                                                                                  13-11
                         Adjustments)
TSA           13-13      Contract Administration                                                                     13-12
TSA           13-14      Adjustments to Prior Year Obligations                                                        13-13
TSA           13-15      Entity Level Controls                                                                        13-14
TSA           13-16      Imputed Costs                                                                               13-15


1
 Disposition Legend:
IAR	       Independent Auditors’ Report dated December 11, 2013
FMC	       Financial Management Comment
MW	        Contributed to a Material Weakness at the Department level when combined with the results of all other components
SD	        Contributed to a Significant Deficiency at the Department level when combined with the results of all other
          components
NC	        Contributed to Non-Compliance with laws, regulations, contracts, and grant agreements at the Department level when
          combined with the results of all other components
NFR	       Notice of Finding and Recommendation

Cross-reference to the applicable sections of the IAR:
A	        Financial Reporting
B	        Information Technology Controls and Financial Systems Functionality
C         Property, Plant, and Equipment
D	        Budgetary Accounting
E	        Entity-Level Controls
F	        Liabilities
G	        Grants Management
H	        Custodial Revenue and Drawback




                                                             15

                                                                             Appendix A
                             Transportation Security Administration
                  Crosswalk – Financial Management Comments to Active NFRs
                                      September 30, 2013

I   Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
J   Federal Financial Management Improvement Act of 1996 (FFMIA)
K   Single Audit Act Amendments of 1996
L   Antideficiency Act, as amended (ADA)




                                                   16

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Chief Privacy Officer

   Transportation Security Administration

   Administrator
   Chief Financial Officer
   Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate


   �




www.oig.dhs.gov                                                            OIG-14-79
ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
